OIG Audit Report GR-30-99-001
Office of Community Oriented Policing Services Grants to the West Virginia State Police

Audit Report GR-30-99-001
December 17, 1998

Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the West Virginia State Police (hereinafter State Police).. The State Police received a grant of $853,543 to hire 13 additional sworn officers under the Accelerated Hiring, Education, and Deployment (AHEAD) program, a grant of $2,942,880 to hire 40 additional sworn officers under the Universal Hiring Program (UHP), a grant of $232,500 to redeploy 20 sworn officers under the Making Officer Redeployment Effective (MORE) 1995 program, a grant of $176,904 to redeploy 8.4 sworn officers under the MORE 1996 program, and a grant of $1,800,000 to redeploy 79 sworn officers under the MORE 1998 program. The purpose of the additional officers and the redeployment was to enhance community policing efforts.

Our audit determined that: 


the number of budgeted sworn officers reported for the fiscal year prior to the receipt of the grants in the Initial Department Report was in error; 

	one Officer Progress Report was not submitted and one was not submitted timely to COPS; and,

	two Annual Department Reports were not submitted timely to COPS. 

These items are discussed in the FINDINGS AND RECOMMENDATIONS section of the report. Our SCOPE AND METHODOLOGY appear in the Appendix.